Audit of the Pension Plan at a Terminated Medicare Contractor, Transamerica
Occidental Life Insurance Company, A-07-01-00125
Department
of Health and Human Services
"Audit of the Pension Plan at a Terminated Medicare Contractor, Transamerica
Occidental Life Insurance Company," (A-07-01-00125)
May 29, 2002
Complete Text of Report is available in PDF format
(4.6 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The Transamerica Occidental Life Insurance Company (TOLIC) was a Medicare contractor
until its contract was terminated in November 2000. Federal regulations and
Medicare contract provisions require pension gains, which occur when a Medicare
segment of a pension plan closes, be credited to the Medicare program. We identified
approximately $20.2 million in excess Medicare pension assets at TOLIC at the
time of contract termination. Our methodology and calculations were reviewed
by the Centers for Medicare & Medicaid Services pension actuarial staff.
We recommended that TOLIC remit the $20.2 million in excess pension assets to
the Medicare program.